No,

3foi ®fje
H>tiptetif£ Court of tfjB ffluitels States
In Re MARRIAGE OF RYAL W. RICHARDS AND ALICIA MARIE
RICHARDS
1

ALICIA MARIE RICHARDS
Petitioner,
V.

RYAL W. RICHARDS
Respondent.

APPENDIX IN SUPPORT OF PETITION
FOR WRIT OF CERTIORARI
YOU. I

Respectfully submitted 12/14/20

b

*JL?

fsl Alicia Marie Richards
351 Catalina Drive
Newport Beach, CA 92663
(949)813-6138
Richardsalicia007@gmail.com
Petitioner in Forma Pauperis

TABLE OF CONTENTS
Appendix A
Court of Appeal Fourth Appellate District, Division
Three, Case No. G056921 consolidated with'
Case No. G057041 Opinion (not published) written
by Presiding Justice Kathleen E. O’Leary dated
May 18, 2020 (17 Pages)...............................................

4a

Appendix B
Court of Appeals Fourth Appellate District,
Division Three, Case No. G056921 consolidated with
Case No. G057Q41 Petition for Rehearing filed on
June 1, 2020 by Petitioner, Alicia Marie Richards
(62 pages).,,..........,.....,..,.....................,,.............,

22a

Appendix C
Court of Appeals Fourth Appellate District, Division
Three, Case No. G056921 consolidated with Case No.
G057041 Order Denying Petition for Rehearing dated
June 4, 2020 by Presiding Justice Kathleen E. O’Leary
(1 page)................... .................. ........................... .......... .

,85a

Appendix D
Supreme Court of California Case No. S262957 Order
Denying Petition for Review dated August 12, 2020
by Chief Justice Cantil-Sakauye (1 page)...... .............

87a

Appendix E
Orange County Superior Court, Family Law Court
Division, Case No. 15D009634, Trial Court Minute
Order dated 10/9/18 by Honorable Judge Andre
De La Cruz, Department L62 (2 page),...,...................

Appx. 2

89a

Appendix F
Orange County Superior Court, Family Law Court
Division, Case No, 15D009634, Trial Court Minute
Order dated 11/0/18 by Honorable Judge Andre
De La Cruz, Department L62 (2 page)....,....,.......... .

92a

Appendix G
Orange County Superior Court, Family Law Court
Division, Case No. 15D009634,Trial Court ex parte
Eviction Order dated 11/9/18 by Honorable Judge Andre De La
Cruz, Department L62 (1 Pages)...,...... .............................................. 95a
Appendix H
Orange County Superior Court, Family Law Court
Division, Case No. 15D009634, Trial Court’s sua sponte Order
Order dated July 10, 2918 ordering Clerk to Sign Listing
Agreement instead of allowing Petitioner to deposit
listing agreement pending ber appeal filed
October 10, 2018 by Judge Andre De La Cruz,
,97a
Department L62 (14 pages)............... ...........................................
Appendix I
Orange County Superior Court, Family Law Court
Division, Case No. 15D009634, Reporter’s Transcripts
of Trial Court bearing held on 11/9/18 by Orange
County Superior Court Family Law Division,
Honorable Judge Andre De La Cruz,
DepartmentL62 (Pages 27) ............................................................. 112a

Appx. 3

APPENDIX A

Opinion issued May 8, 202©
Case No. 0056021 consolidated with Case No. G057041
Fourth District Court of Appeal-Div.3 (Opinion issued May 18, 2020)
SOI W. Santa Ana Blvd., Santa Ana, GA 92701 tel. 714-571-2600
Written by the Honorable Justice Kathleen E O'Leary Affirmed in Full

APPENDIX A
Appx. 4

Filed 5/18/20 Marriage of Richards CA4/3

NOT TO BE PUBLISHED IN OFFICIAL REPORTS

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
In re Marriage of ALICIA MARIE and
RYAL W. RICHARDS.
ALICIA MARIE RICHARDS,

G056921 consol. W/GQ57G41

Appellant,

(Super. Ct No. 15D009634)

v.

OPINION
RYAL W. RICHARDS,
Respondent

Appeal from postjudgment orders of the Superior Court of Orange County,
Andre De La Cruz, Judge. Affirmed.
Alicia Marie Richards, in pro. per., for Appellant.
Law Offices of Kevin E. Robinson and Kevin E. Robinson for Respondent,

Appx. 5

We consolidated the third and fourth appeals arising out of the marital
dissolution action between Alicia Marie Richards (Wife) and Ryal W. Richards
(Husband) and Wife’s efforts to stop the sale of the family’s residence (the Property) and
consider both in this opinion. In Wife’s first appeal (In re Marriage ofRichards (Jan. 9,
2020, G055927) [nonpub. opn.] (Richards I)), we rejected her assertion the court erred by
refusing to set aside a stipulated judgment. The second appeal concerned two
postjudgment orders dated June 15, and July 103 2018. (In re Marriage ofRichards (Jan.
9,2020, G056626) [nonpub. opn.] (Richards II).) We affirmed the court’s June 15,2018,
order fixing a $225,000 undertaking, relating to its earlier ruling to stay enforcement of
the judgment on the condition Wife pay a bond/undertaking. (Ibid) We reversed the
July 10, 2018, order imposing sanctions against Wife with respect to anticipated
misconduct in future hearings. (Ibid.) Here, Wife challenges two more postjudgment
orders dated October 9 (G056921) and November 9,2018 (G057041). The October order
relates to the trial court’s decision to enforce the judgment, forcing Wife to sign a listing
agreement with a real estate agent to sell the Property. The second challenge relates to
several rulings made in November in response to Wife’s refusal to sign the listing
agreement, including the court’s decision to impose sanctions against her. Wife’s
arguments on appeal lack merit, and we affirm the two orders.
BISCUSSION
We incorporate the underlying facts and procedural history discussed in
greater detail in Richards 1 and Richards II Because this appeal concerns two distinct
postjudgment orders, we will summarize the facts relevant to each order within our
analysis of those orders.
I. October 9, 2018, Order
A. Underlying Facts & Procedural History
On May 25,2018, the trial court granted Wife’s motion to stay enforcement
of the judgment pending the appeal in Richards I on the condition she post an
2
Appx. 6

1

undertaking. (Code Civ. Proc., § 917,4.) The court scheduled another hearing to decide
the amount of the undertaking, and on June 15,20 IS, fixed it at $225,000. This ruling
was recently affirmed in Richards II.
While Wife’s appeal of the judgment was pending, Wife did not post an
undextaking/bond. Husband asked the trial court to enforce the judgment by ordering
Wife to sign a listing agreement with real estate agent Scott Singer, or have the court
clerk execute the necessary sale documents. The motion was supported by declarations
signed by Husband, his attorney, Kevin E. Robinson, and Singer. Husband declared the
dissolution judgment provided for an immediate sale of the Property if Wife was unable
to purchase Husband’s share before a specified deadline. He noted Wife was unable to
buy out his share and then she refused to sign the listing agreement Husband
complained that Wife and her brother (Greg Remsen) had been living in the house
without paying its fair rental value.
Robinson’s declaration set forth the procedural history of the case. He
stated that on June 15, 2018, the court gave Wife 30 days to post a $225,000
undertaking/bond to stay enforcement of the judgment during the appeal. He noted Wife
did not file an undertaking or bond within the 30 days.
Singer declared he was a licensed real estate agent and the listing price of
the Property was $1,499,000. He understood the property appraised in 2016 for
$1,250,000, and he included in the listing agreement a price reduction if the Property did
not sell after 30 days. Singer confirmed he sent Wife a copy of the listing agreement, but
she refused to sign it.
Wife filed a response to Husband’s motion seeking to enforce the judgment
and requested sanctions. She asserted the trial court lacked jurisdiction to consider the
motion due to a section 917.4 stay. She also filed objections to the declarations.
i

All further statutory references are to the Code of Civil Procedure.
3
Appx. 7

Husband and Robinson filed declarations replying to Wife’s allegations.
Wife filed objections to these declarations and Husband’s income and expense
declaration.
The trial court ordered Wife to sign the listing agreement and cooperate
with the Property sale. The court admonished Wife that if she failed to comply with the
court’s order, it would sanction her. The court denied Wife’s request for a statement of
decision. Wife filed an appeal from this order.
B. Analysis
We begin by noting that in this opinion we will neither repeat the
contentions nor our analysis of issues resolved in our prior Richards I and Richards II
opinions. As mentioned above, we affirmed the court’s order refusing to set aside the
judgment and its order to stay the judgment on the condition Wife post a $225,000
undertaking. To the extent Wife attempted to raise arguments related to the issues
decided in our prior opinions, those claims are barfed by the collateral estoppel doctrine.
(See Murphy v, Murphy (2008) 164 Cal.App.4th 376, 401-402.)
Wife’s first argument concerning the October 2018 order is the trial court
“abused its discretion by ordering [her] to sigp the [listing agreement] knowing that the
sale of the family home was on appeal” She suggests the judgment was automatically
stayed, pending her appeal in Richards L It is unclear why Wife would make this
assertion considering the fact that both before the trial court and in her last appeal
{Richards II, supra, G056626) she recognized the judgment would not be automatically
stayed and filed a motion to stay the judgment pursuant to section 917.4. She went to
extreme lengths to then convince the judge to either vacate or reduce the amount of the
undertaking. She filed an appeal when the court refused (Richards II, supra, G056626).
As discussed at length in Richards II, when a judgment concerns the sale of
real property, section 917.4 provides, “The perfecting of an appeal shall not stay
enforcement of the judgment... unless an undertaking in a sum fixed by the trial court is
4
Appx. 8

given... .” The statute “requires an undertaking to insure that ‘the appellant or the party
ordered to sell, convey or deliver possession of such property’ will not commit waste.’5
{Estate ofMurphy (1971) 16 Cal.App.3d 564, 568, italics omitted.)
Wife ignores section 917.4 in her opening and reply briefs and fails to
explain why the trial court erred by granting her motion for section 917.4 relief. Her
failure to fully brief the issue constitutes forfeiture of it. “It is the responsibility of the
appellant... to support claims of error with meaningful argument and citation to
authority. (Cal. Rules of Court, rule 8.204(a)(1)(B); Badie v. Bank ofAmerica (1998) 67
Cal.App.4th 779, 784-785 (Badie).) When legal argument with citation to authority is
not furnished on a particular point, we may treat the point as forfeited and pass it without
consideration. [Citation.]5’ (Allen v. City ofSacramento (2015) 234 Cal.App.4ui 41, 52
(Allen).)
Wife’s second argument is the trial court erred by forcing her to sign a
listing agreement containing language not part of the original judgment. Specifically, she
disagrees with “a clause that the price of the family home be reduced by $100,000[] a
month until sold[.]” However, her argument fails to contain any legal discussion
regarding a court’s authority to enforce a judgment. Moreover, in suggesting the terms of
the listing agreement cannot be reconciled with the judgment, Wife does not discuss the
terms of the judgment. Instead, she poses the following tangential question: “[H]ow
could the [court] order the family home price reduced by $100,000 a month until sold
which is a direct conflict with [section] 2120 that sets forth the legislative policy of
ensuring the [equal] division of community property ... and in spite of [her] offer of
‘ proof’ Husband is liable for committing torts.
Wife fails to appreciate she appealed from an order enforcing the
dissolution judgment, which expressly directed her to execute documents permitting sale
of the Property. She executed a marital settlement agreement that

merged into the

judgment of dissolution, “whereupon it ceases to have any independent legal
5
Appx. 9

significance; the parties’ rights and obligations are governed by the judgment alone.
[Citation.]” (In re Marriage ofLynn (2002) 101 CalApp.4th 120, 130; In re Marriage of
Umpkrey (1990) 218 Cal.App.3d 647,656-657.)
“California courts have inherent power to enforce their judgments and
statutory power to compel obedience to their judgments, orders and process. [Citations.]
PQ If, in the exercise of this jurisdiction, the course of proceeding is not specifically
provided for by statute, the court may adopt any suitable process or mode of proceeding
that appears most conformable to the Code of Civil Procedure. [Citations.]” (Ahart, Cal.
Practice Guide: Enf. 1 & Debt (The Rutter Group 2019) f 6:1.) We review such an order
for abuse of discretion. (See Blueberry Properties, LLC v. Chow (2014) 230 Cal.App.4th
1017, 1020; Goldv. Gold (2003) 114 Cal.App.4th 791, 807-808.)
At issue here is the trial court’s reasonableness in issuing an enforcement
order that Wife sign the listing agreement. We conclude the court had authority to
compel obedience because the judgment specifically required Wife’s cooperation in
selling the Property. The judgment stated, in relevant part, the following: “If the
[Property] is not refinanced and the above sums paid by July 7,2017, the house shall be
immediately listed for sale. The parties are ordered to sign the Exclusive Listing
Agreement on or before July 8, 2016[,] with one or more of the following real estate
agents [f] ■ * ■ • [If] If either party fails to sign the listing agreement, the [cjoust [c]lerk is
ordered to sign said Exclusive Listing Agreement within 24 hours [n]otice. [f] Both
parties are ordered to cooperate with signing all the documents necessary for the sale of
the [Property]. [U Time is of the essence. There shall be no delay in selling [the
Property].” It also expressly provided, “The failure to cooperate in the sale, or violations
of this order may result in being required to pay any loss to the community or other party
from the violation, and may result in attorney!] fees, monetary sanctions, and/or contempt
of court.” In addition, the judgment provided the Property’s listing price would be

6
Appx. 10

$1,250,000, but if after 30 days the property had not sold the price would “be reduced to
an amount that the parties agree to in writing after consulting the broker.”
In light of the above provisions, the court plainly had good reason to
enforce the judgment by compelling Wife to sign the listing agreement and cooperate
with the sale of the house. Although the asking price contained in the 2018 listing
agreement was higher than the sum provided for in the 2016 judgment, this upward
modification was in Wife’s favor. Wife does not suggest how she would be prejudiced
by receiving more money from her portion of the sale. Likewise, her complaint about the
listing agreement’s term reducing the price after 30 days was unfounded. There was an
express provision in the judgment calling for a similar reduction. The court’s order
permitting use of a listing agreement, which reduced the price over time, does not exceed
the bounds of reason, and we find no abuse of discretion.
Wife also complains the confirmed real estate agent, Singer, is friends with
Husband, giving him an unfair advantage. She maintains the agent must be neutral
However, the judgment listed Singer as one of three possible agents and it gave Wife 30
days to give Husband her list of potential agents. The judgment provided that if Wife
failed to do so (and she did), Husband could select an agent from the judgment’s list.
Thus, Husband’s selection of Singer was expressly provided for in the judgment.
Moreover, we have no reason to suspect Singer would not adequately and fairly represent
the sellers. The listing agreement provided the agent owed “[a] fiduciary duty of utmost
care, integrity, honestly and loyalty in dealings with” his clients, who are Husband and
Wife. In light of the above, we conclude the court did not abuse its discretion in
overruling Wife’s objection to Singer.
Wife argues the court should not have ordered her to sign the listing
agreement because there was a dispute about whether she would be entitled to more
equity from the sale. Although her argument is unclear, it appears she was referring to
the damages she expected to recover in her separately filed civil lawsuit against Husband.
7
Appx. 11

Later in the briefing, she asserts the court was required to take judicial notice of the
pending civil lawsuit and the court “abused its discretion by failing to consider55 she was
requesting damages that exceeded Husband’s equity in the Property.
We recall a similar argument was raised in Richards I. We rejected Wife’s
contention the trial court was required to postpone division of community assets until she
completed her tort action. Not only did the assertion lack supporting legal authority, it
was based on mere speculation she would prevail. We wrote, “a family law court need
not stay the dissolution action and order Husband to continue paying for two residences
while Wife’s civil action percolates in a different courtroom.” (Richards I, supra,
G055927.) Similarly here, Wife’s legal authority does not support her contention the
court could not enforce a final judgment simply because she filed another lawsuit raising
tort allegations.
We reject Wife’s next assertion that principles of “equity” required the
court to grant a stay without a bond requirement. She maintains it was not fair to give
Husband the '“windfall”’ of his portion of the house sale proceeds when he will likely not
pay her the damages she may recover in the civil action. Speculation about her success
simply does not justify keeping the status quo via a stay during her appeal Moreover,
Wife’s argument appears to suggest the court was required to stay the judgment for an
unlimited period of time. The first two appeals were completed months ago, and as far as
we know, Wife’s civil action has not yet been resolved.
An®ther variation ef Wife’s equity argument was her assertion Husband
was “estopped from forcing her to [sjign” the listing agreement because of his “[ujnclean
fhjands.” The doctrine of unclean hands does not prevent a court from enforcing a final
judgment. It is an affirmative defense, which prevents a plaintiff from obtaining
equitable remedies in a pending suit, (See Jay Bharat Developers, Inc. v. Minidis (2008)
167 Cal.App.4th 437,446.) Consequently, this argument also lacks merit.

8

Appx. 12

Wife’s next contention is the court failed to inform her that it planned to lift
the stay. This argument is based on the flawed premise the court ordered a stay. In June
2018, the court denied Wife’s motion to waive the bond requirement and gave her a
limited time to post the $225,000 undertaking. The court never stayed enforcement of the
judgment because Wife did not timely post the undertaking/bond.
Alternatively, Wife maintains the court abused its discretion by failing to
make sure she received a “foil and fair [a]nd impartial hearing” on the issue of whether
she could afford to post a bond. She explains that at the October 9 hearing, the trial court
knew she had not posted an undertaking and “failed to follow procedure[s]H and
“consider” if poverty was restricting her access to the courts. Wife does not provide legal
authority, and we found none, holding the court has a sua sponte duty to conduct an
evidentiary hearing to determine the financial status of a party who failed to post a bond
while her appeal was pending. Moreover, Wife had an opportunity to litigate her ability'
to pay the bond at the My 2018 hearing fixing the bond amount. We appreciate Wife
was unhappy with the outcome of that hearing, but she is not entitled to re-litigate the
same issue at every postjudgprent hearing.
II. November 9, 2018, Order
A. Underlying Facts & Procedural History
The day after the court ordered Wife to sign the listing agreement, she filed
an ex parte application (1) to stay enforcement of the court’s order setting “an excessive
bond” and (2) for a section 917.3 stay. (Omit capitalization.) In her briefing, Wife states
she offered to sign the listing agreement “against her will” and deposit it with the court if
it “grants a stay pursuant to s«ction 917.3” (without the bond requirement). Husband
opposed the application. The court denied the ex parte application and scheduled a
hearing on the matter for November 9,2018. The court also issued a minute order
scheduling an OSC regarding sanctions against Wife at the November 9 hearing.

9
Appx. 13

Before the November homing, Wife filed objections to the court’s October
9,2018, minute order and to the court’s oral statement of decision ordering her to sign the
listing agreement. She filed a 91-page reply brief to support her motion seeking a stay.
She objected to Robinson’s declaration.
Husband also filed additional points and authorities and declarations. He
filed proposed orders for the court clerk to sign the listing agreement and mandating that
Wife vacate the Property.
On November 2, Wife filed a declaration opposing Husband’s additional
briefing and objected to his declaration. She also filed a document titled, “notice of
lodging [of} undertaking pursuant to court order of June 15,2018.” (Capitalization
omitted.) This document does not contain any evidence Wife obtained a bond or an
undertaking. Rather, in the introductory paragraph Wife stated the following: “Due to
the Bond Company’s notice attached hereto that they cannot issue the bond due to the
insufficiency of the [cjourt’s [ojrder and [Wife’s] indigency, [Wife] hereby gives notice
that she is lodging with the court a fully executed Letter of Undertaking to Provide
Guarantee in the Amount of up to $225,000 to cover any waste pursuant to... [sjection
917.4. The risk is limited to change in the property’s value only affecting [Husband’s]
equity in the family home after the decision on appeal has been rendered.5’ She submitted
a notarized letter stating she agreed to provide “a guarantee” pursuant to section 917,4.
Husband’s counsel filed his declaration stating the court should determine
if Wife is a vexatious litigant because of the numerous documents (approximately 12 in
the past three days) she filed before the November 9 hearing. He requested the court
impose sanctions that included $4,200 for attorney fees.
At the hearing, the court noted Wife’s multiple filings contained a lot of
“cut and paste” and noted the court previously determined Wife was “a borderline
vexatious litigant.” It denied Wife’s request for a statement of decision.

10
Appx. 14

The minute order contained the following rulings: (1) Wife’s guarantee
letter was “entirely deficient5’ because she was unemployed with no income; (2) the
house must be “sold immediately;” (3) if the house did not sell within 50 days, Wife was
to vacate the premises; (4) if Wife refused to vacate, the court ordered Husband to file a
writ of possession with the court; (5) the court clerk was authorized to initial and sign all
documents needed to “effectuate the sale of the home” because Wife had “proven time
and time again that she [was] not going to participate in the sale of the home;” and (6)
Wife must pay sanctions in the amount of $4,200. The court signed Husband’s proposed
orders giving him “exclusive use, possession^] and control” of the Property and requiring
Wife to “vacate the premises” within 14 days. It signed a separate order that authorized
the court clerk to execute documents.
B. Analysis
We reject Wife’s contention the court lacked authority to issue an order
appointing the court cleric to sign the listing agreement. First, the possibility of using an
elisor was expressly provided for in the judgment. Second, courts will typically
“appointf] an elisor to sign documents on behalf of a recalcitrant party in order to
effectuate its judpnents or orders, where the party refuses to execute such documents.
[Citation.]... Under section 128, subdivision (a)(4), ‘[ejvery court shall have the power
* • ■ • [if] • > • [10 ft]° compel obedience to its judgments, orders, and process, and to the
orders of a judge out of court, in an action or proceeding pending therein.’ This statute
has codified the principle of * [t]he inherent power of the trial court to exercise reasonable
control over litigation before it, as well as the inherent and equitable power to achieve
justice and prevent misuse of processes lawfully issued.,.[Citation,]” {Blueberry
Properties, LLCv. Chow (2014) 230 Cal.App.4th 1017, 1020-1021 (.Blueberry
Properties.)
In summary, the trial court was authorized under section 128, subdivision
(a)(4), to order Wife to sign the listing agreement, and when she refused, to appoint an
11
Appx. 15

elisor to enforce its judgment. These orders do not exceed the bounds of reason because
the court was simply enforcing its valid judgment, which required Wife to cooperate in
selling the Property. The court did not abuse its discretion.
Wife next asserts the court failed to rule on her motion to lower the bond
and order a stay. The court’s ruling denying her motion can reasonably be inferred from
its orders pressing forward with enforcement of the judgment. Inherent in the court’s
order giving Husband exclusive use and possession of the property and forcing Wife to
vacate was the court’s determination there were no valid grounds to lower the bond and
invoke a stay of the judgment.
We also reject Wife’s assertion she did not receive adequate notice the
court would make judgment enforcement rulings. At the October 9 hearing, the court
clearly indicated it intended to execute the judgment’s terms, mandating immediate sale
of the Property. Husband filed two proposed orders before the hearing, giving Wife
ample time to object, and indeed she filed oppositions. Section 128, subdivision (a)(4),
provides the court has the power to “compel obedience to its judgments, orders, and
process” which meant the court had authority to swiftly fashion any orders necessary to
enforce compliance with the dissolution judgment. (See Blueberry Properties, supra,
230 Cal.App.4th atpp. 1020-1021.)
Wife raises a related procedural argument that the court erroneously
ordered a writ of possession “without a hearing as required by statute.” She does not
mention the statute, and more importantly the court did not order a writ of possess! on.
Rather, it ordered Husband to file a writ of possession if Wife did not comply with its
order to vacate the house. Wife’s argument is premature.
Wife next asserts the court lacked jurisdiction to “make any rulings after
[she] posted an undertaking set by the court pursuant to [section] 917.4.” (Capitalization
and bold omitted.) She maintains that on November 2, she “posted an undertaking in
equity” for $500,000 “as opposed to the [c]ourt’s excessive bond in the amount of
12
Appx. 16

$225,000.” It appears Wife believed it was appropriate to ignore the court’s order to sign
the listing agreement and untimely substitute the bond requirement with a notarized
personal guarantee. She maintains Husband’s failure to object meant her modification of
the court’s order was a valid way to stay enforcement of the judgment. She fails to
appreciate Husband’s opinion of her scheme was irrelevant in light of the court’s
unequivocal order that Wife sign the listing agreement or face sanctions. There was
absolutely no reason to believe these terms were negotiable. In addition, as noted in the
court’s minute order, Wife’s letter guaranteeing $500,000 was lacking because she
repeatedly claimed to be impoverished. Wife does explain why this conclusion was
incorrect and we deem the issue waived. {Sadie, supra, 67 Cal.App.4th atpp. 784-785.)
Wife maintains the court should not have considered her untimely filed
additional points and authorities and declaration. She maintains Husband’s opposition
papers filed November i violated section 1005 and could not be considered. She does
not believe this same deadline applied to the declaration and objection she filed on
November 1 or the four documents she filed November 2.
The Code of Civil Procedure clearly lays out the chronology for moving
and opposing papers. “Unless otherwise ordered or specifically provided by law, all
moving and supporting papers shall be served and filed at least 16 court days before the
hearing... [a]ll papers opposing a motion so noticed shall be filed with the court and a
copy served on each party at least nine court days, and all reply papers at least five court
days before the hearing.” (§ 1005, subd. (b).) The California Rules of Court clarify the
trial court has discretion to not consider a late filed paper. (Cal. Rules of Court, rule
3.1300(d); Samaniego v. Empire Today, LLC (2012) 205 Cal.App.4th 1138, 1146.)
Husband’s additional points and authorities consisted of four pages that
were obviously cut and pasted from a civil procedure practice guide. On the last page he
asserted Wife violated numerous orders and should be declared a vexatious litigant His
declaration simply re-stated his belief the Property should be sold immediately, otherwise
13
Appx. 17

the court should order Wife to move out and have Husband occupy the residence with the
children. He also submitted proposed orders to enforce the judgment
In her appellate briefing, Wife responds to many of Husband’s allegations
as if this court were considering the matter in the first instance. For example, Wife
asserts she did not violate any orders because she planned to deposit a signed listing
agreement with the trial court. She warned the trial court could not consider vexatious
litigant allegations without first having a noticed hearing. Relevant to this appeal, Wife
failed to meet her burden of demonstrating how she was prejudiced by the purportedly
untimely filed documents. Although the court noted Wife was acting like a vexatious
litigant, it did not declare her to be one. And while Wife may have intended at some
point to deposit an executed listing agreement, she must have changed her mind. Our
record does not contain a copy of it. It is unlikely the court would have ordered its clerk
to execute the listing agreement if it already possessed a copy with Wife’s signature.
Moreover, Father’s additional briefing and declaration was not needed for
the court to appreciate Wife’s habit of filing a disproportionate amount of paperwork
before every hearing. Simply stated, any error in reading untimely filed documents in
this case was harmless. The court’s orders properly furthered enforcement of the
judgment, and we find no abuse of discretion.
Wife asserts the court erred by denying her request for a statement of
decision. She provided record citations to support her claim she made the request.
However, the reporter’s transcript also reflects the court essentially provided an oral
statement of decision, explaining the grounds supporting its various legal rulings.
Nothing more was required. Under section 632, the court may give an oral statement of
decision if the hearing was concluded within one day or less than eight hours. (See In re
Marriage ofKatz (1991) 234 Cal.App.3d 1711,1717-1718.)
Another one of Wife’s complaints is the court abused its discretion when it
did not rale on or set an evidentiary hearing to determine her attorney fee request to file a
14
Appx. 18

writ She explains the purpose of the writ was to obtain a stay from the appellate court
because the frial court’s bond was excessive. Wife waived this argument by failing to
include record citations to support her claim she requested attorney fees or that the court
ruled on the matter. Moreover, it appears the fee request related to a writ challenging the
same subject matter as Wife’s appeal in Rickards II. The lack of attorney fees did not
prevent Wife from having this court review and analyze her argument the bond was
excessive.
Finally, we turn to the court’s $4,200 sanction order. The court-imposed
sanctions under sections 128.5 and 128.7. However, the minute order stated sanctions
were ordered under section “128.5.7,” which was likely a clerical error combining the
two statutes. At the hearing, the court clearly stated it scheduled the OSC regarding
sanctions pursuant to section “128.5 and .7” because Wife failed to “abide by [aj prior
court order.” Wife raises several issues concerning the sanction order. She maintains the
court did not have authority to award sanctions under section 128.5 and 128.7 and
“lacked jurisdiction to rule on its sua sponte OSC [regarding] sanctions.” (Capitalization
and bold omitted.) We conclude these contentions lacks merit.
Earlier in this opinion we addressed and rejected Wife’s lack of jurisdiction
argument. It was based on the faulty premise the lawsuit was stayed pending Wife’s
appeals in Richards I and Richards II. As noted earlier, Wife did not timely post a
bond/undertaking, and therefore, the action was not stayed and the court retained
jurisdiction. In addition, it appears Wife does not understand that the court did not
sanction her for failing to post a bond. At the November 9 hearing, the court stated it
scheduled the OSC because Wife refused to obey its order to sign the listing agreement or
cooperate with selling the Property. In imposing sanctions, the court also considered
Wife’s “litany of filings” (over 14 documents), which contained “misleading statements,”
“a lot of copy and paste,” and “increase[d] unnecessarily the volume for the [c]ourt” to

15
Appx. 19

review. In short, the sanctions related to new events and misconduct transpiring after
Wife filed Richards / and Richards II and after she refused to post the bond.
Wife fails to appreciate that her October 9 motion/offer to deposit a listing
agreement in lieu of the court-ordered bond was unreasonable. She lacked authority to
bargain with the trial court for something more favorable than posting a bond. Moreover,
the opportunity to stay enforcement of the judgment had long since passed. Wife’s
insolent promise to comply with the court’s recent order to sign the listing agreement
only ifthe court agreed to stay the action was both insulting and disrespectful. Wife’s
objectively meritless motion was then followed-up with 14 more equally deficient and
unnecessary documents. The court had jurisdiction to address Wife’s misconduct
(Rutherford v. Owens-Illinois, Inc. (1997) 16 Cal.4th 953, 967 [courts have inhs'eat
authority to manage proceedings and control pending litigation].)
As for application of section 128.5, Wife asserts the statute only applies to
cases before 1994 and was not operative. She is wrong, “Section 128.5 was revived in
2014 by Assembly Bill No. 2494 (2013-2014 Reg. Sess.), effective January 1, 2015
(Stats. 2014, ch. 425, § 1). It authorizes atrial court to order a party, the party’s attorney
or both to pay reasonable expenses, including attorney fees, incurred as a result of bad
faith actions or tactics that are frivolous or solely intended to cause unnecessary delay.
(§ 128.5, subd. (a).)55 {Nutrition Distribution, LLC v. Southern SARMs, Inc,, (2018)
20 Cal.App.5th 117, 124, fh. omitted.) Section 128.5 applies to any action pending as of
January 1,2015. Husband filed his petition for dissolution ill 2016 {R ichards I, supra,
G055927.) Accordingly, the court had authority to award sanctions pursuant to section
128.5.
With respect to section 128,7, Wife maintains the court cannot make
sanctions payable to a party when it set the OSC for sanctions on its own motion. She is
correct. (,Interstate Specialty Marketing, Inc. v. ICRA Sapphire, Inc. (2013) 217

16
Appx. 20

Cal.App.4th 70S, 710.) However, this is a hollow victory because the court ordered
sanctions under section 128.5 as well as section 128.7,
HI. Judicial Bias Allegations
Wife's seven-page judicial bias argument essentially lists every time the
trial judge ruled against her. Many of the purported examples ofjudicial bias relate to
events that pre-date the two orders currently being reviewed. As for the allegations
relating to the two postjudgment orders on appeal, Wife forfeited any claim of judicial
bias by failing to assert it below. (See People y. Farley (2009) 46 Cal,4th 1053, 1110'
People v. S&muels (2005) 36 Cal.4th 96,114.) Moreover, Wife primarily infers bias from
the rulings made in Husband’s favor. ‘“[A] trial court’s numerous rulings against a
party—even when erroneous—do not establish a charge of judicial bias, especially when
they are subject to review.’ [Citation.]55 (.People v. Fuiava (2012) 53 Cal,4th 622, 732.)
We have reviewed the reporter’s transcripts relating to these two appeals and find no
evidence to support her assertion the court “keeps being abusive to her.”
DISPOSITION
We affirm the postjudgment orders. We deny Appellant’s request for
judicial notice because it relates to events taking place in 2019, after the rulings we are
reviewing in this appeal. Respondent shall recover his costs on appeal.

O’LEARY, P. J,
WE CONCUR:

THOMPSON, J.

GOETHALS, J.
17
Appx. 21

APPENDIX B

Petition for Rehearing
Court of Appeals Fourth Appellate District,
Division Three, Case No. G056921 consolidated with
Case No. G057041 Petition for Rehearing Sled on
June 1, 2020 by Petitioner, Alicia Marie Richards

APPENDIX B
Appx. 22

APPENDIX C

Order Denying Petition for Rehearing
Court of Appeals Fourth Appellate District,
Division Three, Case No. G056921 consolidated with
Case No. G057041 Petition for Rehearing denied on
June 4, 2020 by Petitioner, Alicia Marie Richards

APPENDIX C
Appx. 85

Court of Appca!, Fourth Appellate District Division Three
Kevin J. Lane, CierW Executive Offioer
Electronically FILED on S/4/2020 by Debra Esparto. Deputy CEe th

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE
In re Marriage of ALICIA MARIE and
RYAL W. RICHARDS.
ALICIA MARIE RICHARDS,
GG56921 consol. w/G05?04I
Appellant,
(Super. Ct. No. 15D009634)
v.
ORDER
RYAL W. RICHARDS,
Respondent.

The petition for rehearing is DENIED.

O’LEARY, P. J.
WE CONCUR;

THOMPSON, J.

GOETHALS, J.

Appx. 86

APPENDIX D

Order Denying Petition for Keview
Supreme Court of California, Case No* S262957
denied on August 12, 2020 by Chief Justice Cantil-Sakauye

APPENDIX D

Appx. 87

COURT OF APPEAL

4th district divisions
EUCTRONICAUV RECEW-D

Aug 13, mo
Kevin Lane, deft
ByiD.saporito

Court of Appeal, Fourth Appellate District, Division Uliree - Nos. G056921, G057G41
S2S2957

IN THE SUPREME COURT OF CALIFORNIA
Em Bamc
9

In re the Marriage of ALICIA MARIE and RYAL W. RICHARDS,
SUPREME COURT

FILED

ALICIA MARIE RICHARDS, Appellant,

AUG I 2 2020

v.
RYAL W. RICHARDS, Respondent.

Jorge Navarrete Cleric

Deputy
AND CONSOLIDATED CASE
The petition for review is denied.

CANT1L-SAKAUYE

ChiefJustice

Appx. 88

